'P
*

■1

No. 19In The
SUPREME COURT OF THE UNITED STATES
JAMES NATHANIEL DOUSE,
Petitioner,
vs.
THE UNITED STATES OF AMERICA,
DEPARTMENT OF THE NAVY
ADAM BAIN (Department of Justice, Attorney),
Respondent.
On Petition for a Writ of Certiorari
To The United States Court of Appeals for the Eleventh Circuit
These case-initiating Questions are governed by Supreme Court Rule 11.

MOTION FOR LEAVE TO Proceed as a VETERAN Pursuant to
SUPREME COURT RULE 40 ; and
Statutes 38 U.S.C. § 4323(h)(1); 38 U.S.C.§§ 4301-4335
PETITIONER’S DECLARATION to Proceed as a VETERAN.
Pursuant to Supreme Court Rule 40. Veterans, Seamen, and Military Cases, I
Petitioner, James Nathaniel Douse, on behalf of-myself declare as follows:—
1). This Petitioner is an Honorable Discharged Disabled Veteran from Actiye Duty_______
Military Service, United States Marine Corps, DD214 Attach.

RECEIVED
JUL 1 - 2019

OFFICE OF THE CLERK
SUPREME COURT, U.S.

i

2). This Petitioner Active Duty Service was at Camp Geiger, a Base inside of

<

Marine Corps Base Camp Lejeune.
3). Petitioner seeks to proceed on papers prepared as required by Rule 33.2. and
Submitting Documents under Supreme Court Rule 33.2
4). Pursuant to 38 U.S.C.§§ 4301-4335, This provision of law exempts
veterans from the payment of fees or court costs.
5). This Petitioner Resides in the State of Tennessee.
6). This Petitioner have a valid State of Tennessee mailing address.

Respectfully Submitted
Date March 18,2019

I\S'\
JAMES NATHANIEL DOUSE
718 THOMPSON LANE
BLDG 108 UNIT 124
NASHVILLE, TENNESSEE 37204
JAMESCNET9Q@OUTLOOK.COM
_615-848-4415

THIS IS AN IMPORTANT RECORD
SAFEGUARD IT.
2. SEX

3. SOCIAL SECURITY N

I

M
Corporal

USMOll
Unkgnvm

E-4
service

12
MONTH

DAY

M

75

6. STATION OR INSTALLATION AT WHICH EFFECTED

Goli 3rdBn«8thMar. 2n^arDiv(Rela) ,,MF

Release from, active duty

d.

YEAR

EFFECTIVE
OATE

3

/. TYPE OF CERTIFICATE ISSUED

6. CHARACTER OF SERVICE

76

MONTH

DAY

11

1/5

tO. REENLISTMENT CODE

Hone

Honorable

77?

11. LAST DUTY ASSIGNMENT AND MAJOR COMMAND

iA,

CoL 3'rdBa* SttiMar 2 ncMarDiv( Hein) Mi Ff0anLeJ
13. TERMINAL DATE OF RESERVE/
MSS OBLIGATION

11

56

(Street, RFD, City, State and ZIP Code)

C. AUTHORITY ANO REASON

MONTH

YEAR

DAY

Broqard. FL 33o6o

TTyikwrtTjn

9a. net OF SEPARATION

YEAR

7-.
OATE OF
RANK

MONTH

C. HOME OF RECORD AT TIME OF ENTRY INTO ACTIVE

b. SELECTIVE SERVICE LOCAL BOARD NUMBER, CITY, STATE
AND ZIP CODE

fl<L SELECTIVE SERVICE NUMBER

YEAR

10552

6a. GRADE, RATE OR RANK

S. DEPARTMENT. COMPONENT AND BRANCH OR CLASS

4.
DATE OF
GIRTH

DAY

command to which transferred

mmu.

13.

14. PLACE OF ENTRY INTO CURRENT ACTIVE SERVICE (City, Sia/Q and ZIP Code)

DATE ENTERED ACTIVE
DUTY THIS PERIOO

YEAR

«

Jacksonville, vL

12

tea. PRlEfrYHL-SPECfALTY NUMBER*
ANO TITLE

ICCUPATION AND

------

Rifleman
0311 '

74

6. RELATED CIVILIAN OCCUPATION AND
D.O.T. NUMBER
'

11a. SECONDARY SPECIALTY NUMBER
AND TITLE

YEARS

fa/ NET ACTIVE SERVICE THIS PERIOD

m

(b) PRIOR ACTIVE SERVICE
fcj

nil
M

TOTAL ACTIVE SERVICE (a + b)

fdl PRIOR INACTIVE SERVICE

Bpt Applicable

None

DAY

12

11

16.
RECORD OF SERVICE

Proof director
Small arms 199 <168

MONTH

MONTHS

DAYS

21

29l

M
11
M

0fi
20

M

11
29.
At
ZO. HIGHEST EDUCATION LEVEL SUCCESSFULLY COMPLETED fin Yearsj

(el

TOTAL SERVICE FOR PAYfc + rf^

ffj FOREIGN AND/pR SEA SERVICE THIS PERIOD
19. INOOCHINA OR KOREA SERVICE SINCE AUGUST S. 1964

□ «*

NO

21. TIME LOST (Preceding Two
Yrs)

SECONOARY/HIGH SCHOOL 12 YRS f 1-12 grades)
22. DAYS ACCRUED
LEAVE PAIO

None

uwtf

23. SERVICEMEN'S GROUP LIFE
INSURANCE COVERAGE

I

I SI 5,000

I

155,000

I

1910,000* f TiNONE

24. DISABILITY SEVERANCE PAY

2S.

\ 00 NO

a. TYPE

□ YES

AMOUNT

$£k-

l

COLLEGE

YRS

PERSONNEL SECURITY INVESTIGATION

EMESAC

b. DATE COMPLETED

74/57^6

26. DECORATIONS, MEDALS, BADGES, COMMENDATIONS. CITATIONS AND CAMPAIGN RIBBONS AWARDED OR AUTHORIZED

Eifle Expert Badge
27. REMARKS

Good Conduct Medal period commences 741112

26. MAILING ADDRESS AFTER SEPARATION (Street, RFD, City, County, Staie.ZIP)

29. SIGNATURE OF PERSON^ttNG SEPARATED

\

30. T^STSeN^^F TITLE
«

\

Vi 3j&-l ik q
siJMftTCNATURE0 OF OFFICER. AUTj
£0 TO SIGN

OF AUTHORIZING OFFICER

R. P. ADELK3IM. 1 afrit, EXBGO

DD

FORM
1 NOV 72

214 MC

PREVIOUS EOITIONS OF THIS
FORM ARE OBSOLETE.

THIS IS AN IMPORTANT RECORD
SAFEGUARD IT.

S/N 0102-002-0001

REPORT OF SEPARATION
SRB/OQR o
FROM ACTIVE DUTY (1900) OR HQMC A

Case: 16-17573

Date Filed: 05/22/2019

Page: 1 of 6
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 16-17573
Non-Argument Calendar

D.C. Docket No. l:ll-md-02218-TWT
In Re: CAMP LEJEUNE, NORTH CAROLINA WATER CONTAMINATION
LITIGATION.

LEANDRO PEREZ, et al.,
Plaintiffs,
ANDREW STRAW,
JAMES NATHANIEL DOUSE,
ERICA Y. BRYANT,
ROBERT BURNS,
DANIEL J. GROSS, II,
ROBERT PARK,
SHARON KAY BOLING,
LINDA JONES,
ESTELLE RIVERA,
Plaintiffs-Appellants,
versus
UNITED STATES OF AMERICA,
DEPARTMENT OF THE NAVY,
United States of America,
ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY,

Case: 16-17573

Date Filed: 05/22/2019

Page: 2 of 6

DIVISION DIRECTOR, DEPARTMENT OF ENVIRONMENTAL
PROTECTION AGENCY,
DEPARTMENT OF DEFENSE,
SECRETARY OF THE NAVY,
Defendants-Appellees.

Appeal from the United States District Court
for the Northern District of Georgia

(May 22, 2019)
Before TJOFLAT, MARTIN and NEWSOM, Circuit Judges.
PER CURIAM:
Andrew Straw, James Douse, Erica Bryant, Robert Bums, Daniel Gross,
Robert Park, Sharon Boling, Linda Jones, and Estelle Rivera (collectively,
“Plaintiffs”) appeal the District Court’s dismissal of their actions alleging that the
Government negligently injured them by providing contaminated water while they
inhabited Marine Corps Base Camp Lejeune in the 1970s and 1980s.
On appeal, Plaintiffs argue that the District Court committed four errors.
First, they argue that the District Court erred in determining that their claims are
barred by the discretionary-function exception to the Federal Tort Claims Act (“the
FTCA”), 28 U.S.C. § 2680(a). Second, they argue that the District Court erred in
determining that North Carolina’s ten-year statute of repose bars their claims.

2

Case: 16-17573

Date Filed: 05/22/2019

Page: 3 of 6

Third, they argue that the District Court erred in determining that the Feres l
doctrine bars their claims, as their injuries were not incidental to their military
service. Fourth and finally, Plaintiff Straw argues that the District Court abused its
discretion by denying his motion for default judgment because the Government
failed to respond to his pleading.
Because we hold that North Carolina’s ten-year statute of repose applies to
and bars Plaintiffs’ claims, we affirm the District Court’s judgment without
reaching the FTCA, Feres doctrine, and default judgment issues.
I.
We review de novo the District Court’s granting of a motion to dismiss. See
Zelayav. United States, 781 F.3d 1315, 1321 (11th Cir. 2015).
In this case’s prior interlocutory appeal, we held that “North Carolina’s
statute of repose, N.C. Gen. Stat. § 1-52(16) (2010), applies to the plaintiffs’
claims, and it does not contain an exception for latent diseases.” Bryant v. United
States, 768 F.3d 1378, 1385 (11th Cir. 2014). Plaintiffs now argue that this Court
clearly erred in deciding Bryant. Even if Plaintiffs are correct—which they are
not2—it is axiomatic that “a prior panel’s holding is binding on all subsequent

1 Feres v. United States, 340 U.S. 135, 71 S. Ct.T53 (1950).
2 In Stable v. CTS Corp., 817 F.3d 96 (4th Cir. 2016), the Fourth Circuit addressed the
same question we confronted in Bryant. Though the Fourth Circuit reached a different
conclusion, one member of the panel went out of her way to note that “[t]he Supreme Court of
North Carolina itself has sent mixed signals about the scope of § 1-52(16).” Id. at 114 (Thacker,
J., concurring). What’s more, the four federal circuit courts that have interpreted § 1-52(16)
3

Case: 16-17573

Date Filed: 05/22/2019

Page: 4 of 6

panels unless and until it is overruled or undermined to the point of abrogation by
the Supreme Court or by this court sitting en banc” In re Lambrix, 776 F.3d 789,
794 (11th Cir. 2015) (per curiam) (quoting United States v. Archer, 531 F.3d 1347,
1352 (11th Cir. 2008)). Neither the Supreme Court nor this Court sitting en banc
has overruled Bryant, so its holding remains good law.
In addition to arguing squarely against precedent, Plaintiffs now contend that
a six-year statute of repose—that is, not the ten-year “statute of repose that has
been at issue for the entirety of this litigation,”3 but another one—applies to their
claims. The new statute of repose provides that “[n]o action to recover damages
based upon or arising out of the defective or unsafe condition of an improvement
to real property shall be brought more than six years from the later of the specific
last act or omission of the defendant giving rise to the cause of action.” N.C. Gen.
Stat. § 1-50(a)(5)(a). Plaintiffs would rather be subject to the six-year statute of
repose because it contains an exception for defendants who are “in actual
possession or control... of the improvement at the time the defective or unsafe
condition constitutes the proximate cause of the [plaintiffs injury].” Id. § 150(a)(5)(d).

have expressed “different views of the statute’s scope.” Id. (collecting cases). Given the
difficulty of this question and the diversity of interpretations it has produced, Plaintiffs’
suggestion that we plainly erred in Bryant is plainly misguided.
3 In re Camp Lejeune N.C. Water Contamination Litig., 263 F. Supp. 3d 1318, 1336
(N.D. Ga. 2016).
4

Case: 16-17573

Date Filed: 05/22/2019

Page: 5 of 6

Plaintiff Rivera4 contends that this six-year statute of repose applies because
she “alleged that [her] injuries arose out of the defective and unsafe conditions of
improvement to real property” at Camp Lejeune. Rivera Br. at 9-10. The problem
with this argument is that Rivera’s allegations are conclusory, and “the tenet that a
court must accept as true all of the allegations contained in a complaint is
inapplicable to legal conclusions.” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 1949 (2009).
Section 1-50(a)(5), the six-year statute of repose, “deals expressly with
claims arising out of defects in improvement to realty caused by the performance
of specialized services of designers and builders.” Trs. of Rowan Tech. Coll. v. J.
Hyatt Hammond Assocs., Inc., 328 S.E.2d 274, 279—80 (N.C. 1985). “In order for
this statute to apply,... the party sued must have been involved in the designing,
planning, or construction of the defective or unsafe improvement.” Feibus & Co.
v. Godley Constr. Co., 271 S.E.2d 385, 391 (N.C. 1980). It is, “in essence, an
architect’s and builder’s malpractice statute.” Trs. of Rowan Tech. Coll., 328
S.E.2d at 280. So to be subject to this statute of repose rather than the ten-year
statute of repose, Plaintiffs were required to allege defects in the design or
construction of the wells at Camp Lejeune. Bryant and Wright do not do so.

4 Three Plaintiffs—Bryant, Wright, and Rivera—argue that the causes of action pleaded
in their complaints subject their claims to the six-year statute of repose. None of them is correct,
but Plaintiff Rivera advances the strongest argument, so we use it as an example.
5

Case: 16-17573

Date Filed: 05/22/2019

Page: 6 of 6

And—though she advances the strongest argument—neither does Rivera. The
closest Rivera comes to alleging a construction defect is when she claims that over­
pumping of the base’s water wells, in addition to deficient maintenance and
inspection, caused the wells to become “defective and unsafe.” Rivera Br. at 17.
But this is conduct that allegedly occurred after the construction of the wells, and
thus cannot support a claim that the wells were defectively designed or
constructed.
II.
As we held five years ago, Plaintiffs’ claims are subject to the ten-year
statute of repose under N.C. Gen. Stat. § 1-52(16). The wells at issue in this case
were taken out of use in 1987, and the earliest claim by a Plaintiff was made in
1999—two years after the statute of repose had cut off Defendants’ liability.
AFFIRMED.

6

Case: 18-12179

Date Filed: 04/02/2019

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12179-FF
JAMES NATHANIEL DOUSE,
Plaintiff - Appellant,
versus
ELEVENTH CIRCUIT COURT OF APPEALS CLERK OF COURTS, et al.,
Defendants,
ADAM BAIN,
in his individual capacity,
Defendant - Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
ON PETITIONS FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, GRANT and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP35, IOP 2).

Entered for the court:
/s/ FRANK M. HULL
UNITED STATES CIRCUIT JUDGE
ORD-42

Case: 18-12179

Date Filed: 01/24/2019

Page: 1 of 13
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12179
Non-Argument Calendar

D.C. Docket No. 1:18-cv-00847-TWT

JAMES NATHANIEL DOUSE,
Plaintiff-Appellant,
versus

ELEVENTH CIRCUIT COURT OF APPEALS CLERK OF COURTS, et al.,

Defendants,
ADAM BAIN,
in his individual capacity,
Defendant-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia
(January 24, 2019)

Case: 18-12179

Date Filed: 01/24/2019

Page: 2 of 13

Before WILLIAM PRYOR, GRANT and HULL, Circuit Judges.
PER CURIAM:
Plaintiff James Nathaniel Douse brought this pro se civil lawsuit against
defendants Adam Bain, a Department of Justice (“DOJ”) attorney, and the United
States seeking damages after attorney Bain publicly disclosed Douse’s medical
records and personally-identifiable information on the district court’s docket
during a separate lawsuit. The district court granted the defendants’ motions to
dismiss the complaint, concluding, among other things, that Douse’s claims were
barred by the doctrine of res judicata and that Bain was entitled to immunity. On
appeal, Douse challenges those conclusions and also disputes the validity of the
United States’ certification that attorney Bain was acting within the scope of his
federal employment at the time of the unlawful disclosure. After careful review of
the record and the parties’ briefs, we affirm.
I. BACKGROUND FACTS
A. Disclosure of Medical and Personal Information
Separate from this case, plaintiff Douse is involved in a multidistrict
litigation against the United States, in which he and other service members and
their families allege they were injured after being exposed to toxic substances in
the water supply while living at Marine Corps Base Camp Lejeune in North
Carolina. See In re Camp Lejeune N.C. Water Contamination Litig., 263 F. Supp.
2

Case: 18-12179

Date Filed: 01/24/2019

Page: 3 of 13

3d 1318, 1325 (N.D. Ga. 2016). During that litigation, on February 4, 2016, DOJ
attorney Bain filed an opposition to Douse’s motion to amend his complaint, in
which Bain submitted an exhibit containing 17 pages of documents that Douse had
sent to the Department of Navy in support of his administrative claim regarding his
exposure to contaminated water. The 17 pages of documents included Douse’s
medical records and certain personally-identifiable information, such as his date of
birth, social security number, and home address (collectively, “medical and
personal information”). As a consequence, Douse’s medical and personal
information was available on the district court’s public docket for just over one
month. See id. at 1361-62.
In response, on March 8, 2016, Douse filed a motion for punitive and
exemplary damages, arguing that the disclosure of his medical and personal
information violated the Health Insurance Portability and Accountability Act and
tort laws. Id. at 1361-62. The government responded that the disclosure was
inadvertent and immediately asked the district court to remove the entire exhibit
from the court’s public docket. Id. at 1362. The government then submitted a
corrected exhibit that did not include Douse’s medical records and redacted his
personally-identifiable information as required by Federal Rule of Civil Procedure
5.2.

3

Case: 18-12179

Date Filed: 01/24/2019

Page: 4 of 13

On December 5, 2016, the district court denied Douse’s request for punitive
and exemplary damages because “any exposure of information was inadvertent and
for only a brief period of time.” Id The court also dismissed all of the claims
brought by the plaintiffs in the Camp Leieune litigation. Id at 1365. An appeal
from the final judgment in that case is pending in this Court.
B. Two Prior Lawsuits Predicated on this Disclosure
Meanwhile, on September 30, 2016, Douse filed a pro se civil action against
DOJ attorney Bain in Georgia state court. In that complaint, he alleged commonlaw tort claims and a constitutional claim under the Fourth Amendment, based on
Bain’s wrongful disclosure of Douse’s medical and personal information during
the Camp Leieune litigation.
The government removed the state action to the federal district court for the
Northern District of Georgia, pursuant to the Westfall Act, 28 U.S.C. § 2679(d)(2),
which provides that, if the Attorney General certifies that a tort claim against a
federal employee is premised on actions taken within the scope of his employment,
(1) any civil action commenced on that claim in state court “shall be
removed ... at any time before trial” to federal district court, (2) the United States
is substituted as the defendant, and (3) the case proceeds under the Federal Tort
Claims Act (“FTCA”). See 28 U.S.C. § 2679(d)(2). However, the United States

4

Case: 18-12179

Date Filed: 01/24/2019

Page: 5 of 13

may not be substituted as a defendant when a claim “is brought for a violation of
the Constitution.” 28 U.S.C. § 2679(b)(2).
As such, after the United States certified that Bain was acting in his capacity
as a government attorney when he disclosed Douse’s medical and personal
information, the case was removed to the federal district court and the United
States was substituted as the defendant for all of Douse’s claims against Bain,
except for Douse’s Fourth Amendment constitutional claim.
Ultimately, on December 30, 2016, the district court dismissed the complaint
under Federal Rule of Civil Procedure 12(b)(6). First, the district court dismissed
the Fourth Amendment claim against Bain because (1) Bain was not properly
served with the complaint, (2) he was entitled to qualified immunity, and (3) an
improper disclosure of private information cannot form the basis of a Fourth
Amendment violation. The court dismissed the remaining claims against the
United States because the complaint was an improper “shotgun pleading” that
failed to comply with Federal Rules of Civil Procedure 8 and 10. The court also
dismissed the complaint for lack of subject matter jurisdiction because Douse
suffered no injury from the disclosure of his medical and personal information
because he “waived his privacy rights” in the records by voluntarily submitting
them as proof of his personal injuries in the Camp Leieune lawsuit. Douse

5

Case: 18-12179

Date Filed: 01/24/2019

Page: 6 of 13

appealed from this order, but this Court dismissed the appeal for want of
prosecution.
A few days after filing his civil action in state court, on October 4, 2016,
Douse filed another lawsuit in federal district court predicated on the same
disclosure of his medical and personal information by attorney Bain. This time,
Douse filed a pro se FTCA personal injury action against the United States,
alleging that the United States wrongly placed that information onto the docket in
the Camp Leieune litigation.
On January 6, 2017, the district court dismissed this second complaint under
Rule 12(b)(6) as well. As in the other lawsuit, the district court concluded that
Douse failed to allege an injury based on the inadvertent disclosure of his medical
and personal information. This Court dismissed Douse’s appeal from this order for
want of prosecution too.
C. The Present Civil Action
That brings us to the instant civil action, which is Douse’s third pro se
lawsuit based on DOJ attorney Bain’s inadvertent disclosure of his medical and
personal information during the Camp Leieune litigation. On February 1, 2018,
Douse filed a complaint in Georgia state court against the United States and Bain,

6

Case: 18-12179

Date Filed: 01/24/2019

Page: 7 of 13

alleging that Bain’s filing violated his Fourth Amendment right to privacy, as well
as various federal statutes and state law provisions.
Invoking the Westfall Act again, the United States certified that attorney
Bain was acting in the scope of his federal employment at the time of the incident
out of which Douse’s claims arose and removed the case to the federal district
court in the Northern District of Georgia. And, as in his prior lawsuit, the United
States was substituted as defendant for all of Douse’ s claims, except for his Fourth
Amendment claim against Bain.
Both the United States and Bain then moved to dismiss the complaint
asserting, among other things, that Douse’s claims were barred by res judicata
because they were litigated in the prior actions.
The district court granted the motions to dismiss. As to the United States,
the district court concluded that the FTCA claims were barred by the statute of
limitations and that all of Douse’s claims against the United States were barred by
claim preclusion, as they were a “rehash of two nearly identical complaints filed by
[Douse] in 2016 and dismissed by this [c]ourt.” Similarly, the district court
concluded that the claims against Bain were foreclosed by the immunity granted in
the Westfall Act, except for the Fourth Amendment claim, and the entire action

'Douse also named as defendants the Eleventh Circuit Clerk of Court and the Northern
District of Georgia Clerk of Court. At Douse’s request, the district court dismissed those
defendants from the case.
7

Case: 18-12179

Date Filed: 01/24/2019

Page: 8 of 13

was barred by res judicata because it was based on Bain’s same disclosure of
medical and personal information as in Douse’s prior lawsuits. The district court
noted as well that Douse “does not complain of any search or seizure in any
constitutionally-recognized sense” and the disclosure of information already in the
government’s hands does not constitute a Fourth Amendment violation.
II. STANDARD OF REVIEW
The district court’s Rule 12(b)(6) dismissal is subject to plenary review.
Lane v. Philbin. 835 F.3d 1302, 1305 (11th Cir. 2016). The district court’s
application of res judicata is a question of law which we review de novo. Griswold
v, Ctv. of Hillsborough. 598 F.3d 1289, 1292 (11th Cir. 2010). Additionally, we
review de novo questions of statutory interpretation. United States v. DBB, Inc.,
180 F.3d 1277, 1281 (11th Cir. 1999).
III. DISCUSSION
A. Westfall Act Certification
On appeal, plaintiff Douse challenges the validity of the United States’
statutory certification that Bain was acting within the scope of his employment
when he improperly disclosed Douse’s medical and personal information.
According to Douse, the scope-of-employment certification filed in his case is
insufficient because the Westfall Act requires that certification to be made by the
Attorney General. Here, the certification was done by James G. Touhey, Jr., the
8

Case: 18-12179

Date Filed: 01/24/2019

Page: 9 of 13

Director of the Torts Branch of the Civil Division of the DOJ, and not the Attorney
General. This argument is unavailing.
“The Federal Employees Liability Reform and Tort Compensation Act of
1988, commonly known as the Westfall Act, accords federal employees absolute
immunity from common-law tort claims arising out of acts they undertake in the
course of their official duties.” Osborn v. Haley, 549 U.S. 225, 229, 127 S. Ct.
881, 887 (2007). When a federal employee is sued for wrongful conduct, the
statute empowers the Attorney General to certify that the employee “was acting
within the scope of his office or employment at the time of the incident out of
which the claim arose.” 28 U.S.C. § 2679(d)(1), (2). Upon such certification, the
United States is substituted as defendant in place of the employee and the litigation
is thereafter governed by the FTCA. Osborn, 549 U.S. at 230, 127 S. Ct. at 888. If
the action is commenced in state court, the Westfall Act calls for its removal to a
federal district court and renders the Attorney General’s certification conclusive
for purposes of removal. 28 U.S.C. § 2679(d)(2); Osborn, 549 U.S. at 230, 127 S.
Ct. at 888.
Significantly though, the Attorney General may delegate this certification
authority. 28 U.S.C. § 510. And in fact, the Attorney General has delegated this
authority to the Director of the Torts Branch of the Civil Division of DOJ. 28
C.F.R. § 15.4(a) (“[A]ny Director of the Torts Branch, Civil Division, Department
9

Case: 18-12179

Date Filed: 01/24/2019

Page: 10 of 13

of Justice, is authorized to make the statutory certification that the Federal
employee was acting within the scope of his office or employment with the Federal
Government at the time of the incident out of which the suit arose.”) Contrary to
Douse’s arguments then, Touhey’s scope-of-employment certification filed in this
case was sufficient under the Westfall Act. Thus, the case was properly removed
to the federal district court, and the court correctly accorded Bain immunity on
Douse’s tort claims.
B. Res Judicata
In addition, plaintiff Douse argues that the district court misapplied the
doctrine of res judicata to his case. We disagree.
Under the doctrine of res judicata (also known as claim preclusion), a claim
is barred by a prior suit if: “(1) there is a final judgment on the merits; (2) the
decision was rendered by a court of competent jurisdiction; (3) the parties . . . are
identical in both suits; and (4) the same cause of action is involved in both cases.”
Griswold. 598 F.3d at 1292 (quotation marks omitted). All four conditions are met
here.
First, there was a final judgment on the merits in Douse’s two prior civil
actions because the district court dismissed both of his complaints for failure to
state a claim for relief pursuant to Rule 12(b)(6). Federated Dep’t Stores, Inc, v.
Moitie. 452 U.S. 394, 399 n.3, 101 S. Ct. 2424, 2428 n.3 (1981) (“[A] dismissal for
10

Case: 18-12179

Date Filed: 01/24/2019

Page: 11 of 13

failure to state a claim under Federal Rule of Civil Procedure 12(b)(6) is a
judgment on the merits.” (quotation marks omitted)); NAACP v. Hunt, 891 F.2d
1555, 1560 (11th Cir. 1990) (same). Second, the dismissals were rendered by a
court of competent jurisdiction because Douse’s first state court action was
properly removed to the federal district court in the Northern District of Georgia
under the Westfall Act, and his second federal action involved a federal claim and
properly invoked the jurisdiction of that federal district court. See 28 U.S.C.
§§ 1331, 2679(d)(2). Third, the parties are identical in the actions as all involved
Douse, Bain, and the United States. Fourth, the cases involve the same cause of
action because the claims Douse raised in each are based upon the same incidentthat is, on February 4, 2016, Bain publicly disclosed Douse’s medical and personal
information in the Camp Leieune litigation. See Griswold, 598 F.3d at 1293 (“If a
case arises out of the same nucleus of operative facts, or is based upon the same
factual predicate, as a former action, the two cases are really the same ‘claim’ or
‘cause of action’ for purposes of res judicata.” (alterations and quotation marks
omitted)).
As can be reasonably construed, Douse’s arguments on appeal relate to the
second prong of the res judicata analysis—that the prior decisions were made by a
court of competent jurisdiction. Specifically, Douse argues that Bain’s and the
United States’ removal of his first action from Georgia state court was untimely
11

Case: 18-12179

Date Filed: 01/24/2019

Page: 12 of 13

under 28 U.S.C. §§ 1442(a) and 1446(b), and therefore the suit was not properly in
the federal district court. For this reason, he also argues that the state court should
have entered a default judgment in his favor in that first state action.
Douse is correct that § 1442(a) provides for the removal of an action against
a federal officer and that § 1446(b) generally requires that removal be
accomplished within 30 days of the federal officer’s receipt of the complaint.2
However, this case was removed pursuant to the Westfall Act, which provides that
removal may take place “at any time before trial.” 28 U.S.C. § 2679(d)(2) (stating
that once the Attorney General certifies that a tort claim against a federal employee
is premised on actions taken within the scope of his employment, any civil action
commenced upon such a claim in state court “shall be removed ... at any time
before trial” to federal district court). Douse does not dispute on appeal, and it
appears to us, that a trial in that first state court action was never scheduled, much
less held, and thus the removal was timely. Accordingly, Douse’s arguments
regarding the propriety of the district court’s jurisdiction over his prior lawsuit

2 28 U.S.C. § 1442(a) provides in relevant part that, “[a] civil action ... commenced in a
State court against or directed to any of the following may be removed by them to the district
court of the United States ... (1) The United States or any agency thereof or any officer (or any
person acting under that officer) of the United States ....” In turn, 28 U.S.C. § 1446(b) states in
relevant part that “[t]he notice of removal of a civil action or proceeding shall be filed within 30
days after the receipt by the defendant, through service or otherwise, of a copy of the initial
pleading.”
12

Case: 18-12179

Date Filed: 01/24/2019

Page: 13 of 13

have no merit. We therefore conclude that the district court properly dismissed
Douse’s claims under the doctrine of res judicata.3
IV. CONCLUSION
For the foregoing reasons, we affirm the district court’s dismissal of Douse’s
complaint under Rule 12(b)(6).
AFFIRMED.

3Douse raises several arguments on appeal regarding the merits of his claims against Bain
and the United States. For example, Douse contends that he presented sufficient evidence that
Bain unlawfully disclosed his medical and personal information and thus he is entitled to money
damages. Because we conclude that his claims are barred under the doctrine of res judicata, we
do not address the merits of his claims.
13

Additional material
from this filing is
available in the
Clerk's Office.

